TN

C@QCKLE

. E-Mail Address:
Le ga 1 B rie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923,

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1173

COMCAST CORPORATION, ET AL.,
Petitioners,
v.
INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
COMPUTER & COMMUNICATIONS INDUSTRY ASSOCIATION, HIGH TECH INVENTORS
ALLIANCE, AND CABLELABS AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5998 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 27th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Affiant

    

A GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

My Comm, Exp. September 6, 2028

 

 

Notary Public
